Audit Report




OIG-14-002
SAFETY AND SOUNDESS: In-Depth Review of Second Federal
Savings and Loan Association of Chicago
October 28, 2013




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

  Background .............................................................................................    4

  Results of Audit........................................................................................    5

      The Comptroller’s Handbook Does Not Include Guidance on ITIN Lending
      Risks and Needs to Be Updated to Reflect Current Interagency Guidance
      on High-Risk Mortgage Lending Products..................................................                5

  Recommendation ......................................................................................       8

Appendices

  Appendix 1:         Objectives, Scope, and Methodology .....................................               10
  Appendix 2:         Second Federal Savings and Loan Association of Chicago
                      History and CAMELS ratings.................................................            12
  Appendix 3:         Management Response ........................................................           15
  Appendix 4:         Major Contributors to This Report..........................................            17
  Appendix 5:         Report Distribution ..............................................................     18

Abbreviations and Acronyms

  ALLL                allowance for loan and lease losses
  BSA                 Bank Secrecy Act
  CIP                 Customer Identification Program
  CRA                 Community Reinvestment Act
  CRP                 capital restoration plan
  FDIC                Federal Deposit Insurance Corporation
  ITIN                individual taxpayer identification number
  IRS                 Internal Revenue Service
  MRBA                matters requiring board attention
  OCC                 Office of Comptroller of the Currency
  OIG                 Office of Inspector General
  OTS                 Office of Thrift Supervision
  PCA                 Prompt Corrective Action
  SAR                 suspicious activity report
  SSN                 social security number




                      In-Depth Review of Second Federal Savings and Loan Association of Chicago         Page i
                      (OIG-14-002)
         This page intentionally left blank.




In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page ii
(OIG-14-002)
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                       October 28, 2013

                       Thomas J. Curry
                       Comptroller of the Currency

                       This report presents the results of our in-depth review of the failure
                       of the Second Federal Savings and Loan Association of Chicago
                       (Second Federal) located in Chicago, Illinois. The former Office of
                       Thrift Supervision (OTS) regulated Second Federal until July 21,
                       2011, when the Office of the Comptroller of the Currency (OCC)
                       assumed regulatory responsibility for federal savings associations
                       pursuant to P.L. 111-203. OCC closed Second Federal and
                       appointed the Federal Deposit Insurance Corporation (FDIC) as
                       receiver on July 20, 2012. As of September 30, 2013, FDIC
                       estimated the loss to the Deposit Insurance Fund1 at $76.9 million.

                       Because the magnitude of the loss estimate was less than the
                       threshold requiring a material loss review pursuant to section 38(k)
                       of the Federal Deposit Insurance Act, we conducted a limited
                       review of Second Federal that focused on the causes of the bank’s
                       failure, and issued a report in December 2012. 2 As a result of our
                       limited review, we determined that an in-depth review of Second
                       Federal’s failure was warranted based on what we found to be an
                       unusual circumstance – the nature of the bank’s unsafe and




1
  Definitions of certain terms, which are underlined where first used in this report, are found in Safety
and Soundness: Material Loss Review Glossary, OIG-11-065 (Apr. 11, 2011). That document is
available on the Treasury Office of Inspector General’s (OIG) website at
http://www.treasury.gov/about/organizational-structure/ig/by-date-2011.aspx.
2
  OIG, Safety and Soundness: Failed Bank Review of Second Federal Savings and Loan Association of
Chicago, OIG-13-028 (Dec. 20, 2012)

                       In-Depth Review of Second Federal Savings and Loan Association of Chicago     Page 1
                       (OIG-14-002)
                       unsound lending practices particularly as it related to borrowers
                       with individual taxpayer identification numbers (ITIN). 3

                       As discussed in our December 2012 report, Second Federal’s
                       failure was primarily caused by losses associated with three types
                       of high-risk loans: ITIN loans, stated-income residential loans, and
                       stated-income commercial loans. Beginning in 2004, Second
                       Federal originated and purchased a large volume of ITIN loans that
                       resulted in a significant concentration of 402 percent of core
                       capital plus allowance for loan and lease losses (ALLL) at December
                       2010. OTS examiners found that bank management’s execution
                       and oversight of this new and unproven lending strategy failed to
                       adequately address the risks related to ITIN loans. Second Federal’s
                       board and management’s lack of sufficient capital planning and
                       effective credit risk management led to loan losses that depleted
                       capital and ultimately caused Second Federal’s failure.

                       The objectives of our in-depth review were to assess OCC’s
                       (1) supervisory guidance to banks and examiners on the types of
                       high-risk lending that occurred at Second Federal, particularly ITIN
                       loans, and (2) implementation of Prompt Corrective Action (PCA)
                       under section 38. To accomplish our objectives, we reviewed the
                       supervisory files and interviewed OCC examiners and officials. We
                       also interviewed personnel at FDIC's Division of Depositor and
                       Consumer Protection. Appendix 1 contains a more detailed
                       description of our review objectives, scope, and methodology.
                       Appendix 2 contains information on Second Federal’s history and
                       CAMELS ratings.

                       In brief, we determined that the OCC Comptroller’s Handbook
                       (Handbook) does not include guidance on the risks of ITIN lending
                       and is outdated in other high-risk lending areas such as subprime




3
  The Internal Revenue Service (IRS) issues ITINs to help individuals comply with the U.S. tax laws, and
to provide a means to process and account for tax returns and payments from those not eligible for
social security numbers. ITINs are issued regardless of immigration status because both resident and
nonresident aliens may have U.S. Federal tax filing and payment responsibilities under the Internal
Revenue Code. (Source: IRS Publication 1915 (Rev. 1-2012), p. 6)

                       In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 2
                       (OIG-14-002)
                      lending and nontraditional mortgages.4 As discussed in appendix 2,
                      we concluded OCC’s supervisory actions under PCA were
                      appropriate.

                      Due to the number of risks associated with ITIN lending, we
                      recommend that the Comptroller of the Currency incorporate ITIN
                      lending into its guidance as appropriate. The guidance should
                      discuss the unique risks associated with ITIN lending, as well as
                      bank management’s responsibility to incorporate strong risk
                      management policies and procedures around ITIN lending. OCC
                      should also update its Handbook to incorporate the most recent
                      interagency guidance on high risk lending products such as
                      subprime and nontraditional loans.

                      Management Response In a written response, which is included as
                      appendix 3, OCC stated it has updated its Concentration of Credit
                      booklet of the Comptroller’s Handbook series to reflect lessons
                      learned from the crisis and to highlight the need for more granular
                      assessments of credit concentrations of any type. While not
                      explicitly mentioned, such concentrations would include ITIN loans.
                      Additionally, OCC stated it is developing a new booklet that will
                      focus on residential real estate loans that national banks and
                      federal savings associations originate and underwrite to hold in
                      their own portfolios, and will incorporate appropriate language
                      about the risks posed by ITIN loans in this booklet.

                      OIG Comment We consider the action committed to by OCC as
                      responsive to our recommendation. When we inquired about plans
                      to incorporate the most recent interagency guidance on high risk
                      lending products such as subprime and nontraditional loans into its
                      guidance, OCC personnel stated that OCC is updating its Mortgage
                      Banking booklet of the Comptroller’s Handbook, which will include
                      the interagency guidance on high-risk lending products. We also
                      consider this action to be responsive to our recommendation.


4
  The term subprime refers to the credit characteristics of individual borrowers. Subprime borrowers
typically have weakened credit histories that include payment delinquencies and possibly more severe
problems such as charge-offs, judgments, and bankruptcies. They may also display reduced repayment
capacity as measured by credit scores, debt-to-income ratios, or other criteria that may encompass
borrowers with incomplete credit histories. Subprime loans are loans to borrowers displaying one or
more of these characteristics at the time of origination or purchase.

                      In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 3
                      (OIG-14-002)
Background
                       In 1996, IRS created the ITIN so that individuals who are not
                       eligible to obtain social security numbers (SSNs) could obtain an
                       identification number for income tax filing purposes. As discussed
                       in a 1999 Treasury Inspector General for Tax Administration report,
                       IRS made a policy decision to issue ITINs to illegal immigrants to
                       enable them to pay taxes.5 From 1996 to August 2012, IRS
                       assigned 21 million ITINs. The latest 2010 and 2011 Census
                       Bureau data indicates there are more than 50 million immigrants
                       (legal and illegal) living in the U.S. An estimated 28 percent of all
                       immigrants are in the country illegally.

                       The regulation that implemented Section 326 of the USA PATRIOT
                       Act of 2001, Verification of Identification, allows banks to accept
                       taxpayer identification numbers for non-U.S. persons as a form of
                       identification, enabling banks to serve unbanked immigrants.6
                       According to a 2010 academic study on mortgage lending and
                       foreclosures in immigrant communities, beginning in the early
                       2000s, a growing number of banks offered ITIN loans. By 2005, at
                       least 20 banks and credit unions, mostly in the Chicago and other
                       Midwestern markets, offered such loans. By 2007, ITIN lending
                       was occurring in roughly 40 states, and by 2008, immigrants had
                       borrowed between $1 and $2 billion in ITIN mortgages.7,8
                       According to a 2011 FDIC survey of 567 banks, including large,
                       midsize and small banks, 73 percent of the banks accepted ITINs
                       to open accounts.

                       Although not classified as subprime or nontraditional loans, ITIN
                       loans are risky because, among other reasons that are discussed
                       below, some ITIN loan applicants may not undergo a traditional
                       credit review as a result of their undocumented status. The

5
  Treasury Inspector General for Tax Administration, The Internal Revenue Service’s Individual Taxpayer
Identification Number Program Was not Implemented in Accordance with Internal Revenue Code
Regulations, Ref. No. 094505, Executive Summary, p. i (Sep. 28, 1999).
6
  31 CFR § 1020.220
7
  Deyanira del Rio, “Mortgage Lending and Foreclosures in Immigrant Communities: Expanding Fair
Housing and Fair Lending Opportunity among Low income and Undocumented Immigrants,” Kirwan
Institute for the Study of Race and Ethnicity of the Ohio State University, p. 8, February 2010.
8
  The total amount of mortgage loans for 1-4 family homes from 2000 to the second quarter of 2008
was approximately $10 trillion.

                       In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 4
                       (OIG-14-002)
                       potential for even greater risk exists when an ITIN loan is originated
                       as a nontraditional mortgage loan.

                       OCC does not track ITIN lending, either by bank or in total volume.
                       Although OCC was not able to provide us with specific data on
                       current ITIN lending, officials and examiners we interviewed opined
                       that ITIN lending by OCC-regulated banks had not increased since
                       2008 and may have decreased after 2009.

                       Compliance examiners may encounter ITIN lending during
                       examinations to determine banks’ compliance with (1) the Bank
                       Secrecy Act (BSA)/Customer Identification Program (CIP), 9 (2) fair
                       lending laws and regulations, and (3) the Community Reinvestment
                       Act (CRA). BSA requires banks to file suspicious activity reports
                       (SARs) if there are any suspicious activities during the opening of
                       an account. In 2005, Second Federal entered into a Supervisory
                       Agreement with OTS because of its noncompliance with BSA.
                       Examiners found that the bank did not have a suspicious activity
                       reporting process related to high-risk customers, including ITIN
                       customers. OTS examiners did not find any violations of fair
                       lending laws and regulations at Second Federal, and gave the bank
                       a CRA examination rating of “outstanding” for its ITIN loan
                       program targeted to unbanked immigrant families and for meeting
                       its CRA obligations.


Results of Audit
                       The Comptroller’s Handbook Does Not Include Guidance
                       on ITIN Lending Risks and Needs to Be Updated to
                       Reflect Current Interagency Guidance on High-Risk
                       Mortgage Lending Products

                       The Handbook is comprised of booklets that cover specific topics
                       related to banking, such as mortgage banking and retail lending.
                       The Mortgage Banking booklet (1998) discusses the risks

9
  BSA requires financial institutions in the United States to assist U.S. government agencies to detect
and prevent money laundering. BSA was amended by the USA PATRIOT Act of 2001 to require all
financial institutions to have a written Customer Identification Program (CIP). CIP is intended to enable
the bank to form a reasonable belief that it knows the true identify of each customer.

                       In-Depth Review of Second Federal Savings and Loan Association of Chicago    Page 5
                       (OIG-14-002)
                        associated with, and includes examination procedures for the
                        supervision of, mortgage banking. This booklet discusses
                        nontraditional lending but does not reflect the most recent
                        interagency guidance on nontraditional mortgage product risks
                        issued in 2006. 10 This booklet is silent on both subprime and ITIN
                        lending.

                        OCC’s Retail Lending Examination Procedures booklet (2004)
                        includes examination procedures for the supervision of all types of
                        retail lending products and operations. This booklet discusses
                        subprime lending and the interagency guidance on subprime lending
                        issued in 2001; however, it does not reflect the most recent
                        subprime lending interagency guidance issued in 2007. 11 Also, the
                        booklet does not cover nontraditional loan products or the risks of
                        ITIN lending.

                        When asked about specific guidance for ITIN lending, OCC officials
                        and examiners confirmed that none exists at this time. We received
                        different opinions about the need to incorporate new guidance. For
                        example, one examiner stated that ITIN loans are classified as
                        single-family mortgage lending, thus separate guidance for ITIN
                        loans is not needed. Another comment we received was that no
                        guidance is necessary for ITIN loans because OCC has enough
                        guidance for high-risk loans and that an appropriate underwriting
                        process for ITIN loans would be similar to the subprime loan review
                        process that requires full verification of credit and income. Other
                        OCC personnel we interviewed stated that ITIN lending guidance is
                        needed. One OCC examiner stated that banks should have
                        procedures and policies for ITINs in place to include extra steps in
                        the underwriting process to reduce the potential for fraud. An OCC
                        official told us that there should be guidance to define the types of
                        documentation required to obtain an ITIN loan and to increase the
                        credit verification process including more due diligence and
                        requiring W-2s as proof of income.

                        While the former OTS was the regulator of Second Federal, its
                        examiners identified significant risks related to ITIN lending and
                        Second Federal's implementation of its ITIN loan program. These
                        risks included (1) the bank's inability to conduct a traditional credit
10
     Interagency Guidance on Nontraditional Mortgage Product Risks, 71 FR 58609 (Oct. 4, 2006).
11
     Statement on Subprime Mortgage Lending, 72 FR 37569 (July 10, 2007).

                        In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 6
                        (OIG-14-002)
                      review, (2) credit reports that raised uncertainty as to the true
                      identity of the borrower, (3) the reduced job stability of borrowers
                      without SSNs, and (4) the possibility of the government enacting
                      stricter immigration laws or initiating stricter enforcement of
                      existing laws.

                      With regard to credit reviews, banks may be unable to conduct a
                      traditional credit review because of the undocumented status of
                      the borrowers. Alternatively, banks may have to rely on other
                      sources such as landlords, insurance agents, retail stores, and
                      utility companies to verify credit history. The true identity of the
                      ITIN borrower may be unknown because multiple forms of
                      identification may have been used to gain employment or obtain
                      credit in the past. According to a 2011 study by the Financial
                      Crime Enforcement Network, most SARs related to identity theft in
                      the sample reviewed described applicants who used invalid ITINs or
                      SSNs on loan origination or modification documents.12 Also, many
                      undocumented workers cannot verify their income because they
                      are paid in cash. Employers are reluctant to document the wages
                      they pay to workers who are not authorized to work within the
                      U.S.

                      ITIN lending concentration can present a unique risk, in that many
                      ITIN borrowers may be in the same industry and/or geographical
                      area, which may make the loan portfolio particularly susceptible to
                      changes in the economy. Finally, according to a 2010 academic
                      study on mortgage lending and foreclosures in immigrant
                      communities, there is no secondary market13 for ITIN loans.14

                      Due to the number of risks associated with ITIN lending and the
                      potential for increased ITIN lending in the future as evidenced by
                      the volume of ITINs issued by the IRS, we believe a discussion of
                      ITIN lending in OCC guidance is warranted. We also believe OCC
                      guidance should reflect the most current interagency guidance on
                      high-risk lending.

12
   Financial Crimes Enforcement Network, Mortgage Loan Fraud Update: Suspicious Activity Report
Filings In 2nd Quarter 2011, ps. 13-14 (Sep. 2011).
13
   The market where mortgage loans and servicing rights are bought and sold between mortgage
originators, mortgage aggregators (securitizers) and investors.
14
   Del Rio, “Mortgage Lending and Foreclosures in Immigrant Communities: Expanding Fair Housing and
Fair Lending Opportunity among Low income and Undocumented Immigrants,” p. 9.

                      In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 7
                      (OIG-14-002)
Recommendation
           During our audit, we were informed that OCC is in the process of
           updating the Comptroller’s Handbook. As part of the update, we
           recommend the Comptroller of the Currency incorporate ITIN
           lending guidance as appropriate. The guidance should discuss the
           unique risks associated with ITIN lending, as well as bank
           management’s responsibility to incorporate strong risk management
           policies and procedures around ITIN lending. OCC should also
           update the Handbook to incorporate the most recent interagency
           guidance on high risk lending products such as subprime and
           nontraditional loans.

           Management Response

           OCC stated that it has updated its Concentration of Credit booklet
           of the Comptroller’s Handbook series to reflect lessons learned
           from the crisis and to highlight the need for more granular
           assessments of credit concentrations of any type, and while not
           explicitly mentioned, such concentrations would include ITIN loans.

           Additionally, OCC stated that given the heightened risks and
           complexity of residential lending products, it is developing a new
           booklet that will focus on residential real estate loans that national
           banks and federal savings associations originate and underwrite to
           hold in their own portfolios, and will incorporate appropriate
           language about the risks posed by ITIN loans in this booklet. OCC
           expects to complete the Handbook revisions by December 31,
           2014.

           OIG Comment

           OCC’s corrective action is responsive to our recommendation.
           When we inquired about plans to incorporate the most recent
           interagency guidance on high risk lending products such as
           subprime and nontraditional loans into its guidance, OCC personnel
           stated that OCC is updating its Mortgage Banking booklet of the
           Comptroller’s Handbook, which will include the interagency
           guidance on high-risk lending products. We also consider this
           action to be responsive to our recommendation.


           In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 8
           (OIG-14-002)
                              * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-0384 or Theresa Cameron, Audit
Manager, at (202) 927-1011. Major contributors to this report are
listed in appendix 4.




Jeffrey Dye /s/
Director, Banking Audits




In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 9
(OIG-14-002)
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We performed an in-depth review of the failure of the Second
                        Federal Savings and Loan Association of Chicago (Second Federal)
                        located in Chicago, Illinois. Our objectives were to assess the
                        Office of the Comptroller of the Currency’s (OCC) (1) supervisory
                        guidance to banks and examiners on the types of high-risk lending
                        that occurred at Second Federal, particularly individual taxpayer
                        identification number (ITIN) loans, and (2) implementation of
                        Prompt Corrective Action (PCA) under section 38.

                        We conducted this in-depth review of Second Federal in response
                        to Section 38(k) of the Federal Deposit Insurance Act.15 This
                        section provides that if the inspector general for the appropriate
                        federal banking agency determines an in-depth review of a
                        nonmaterial loss to the Deposit Insurance Fund is warranted, the
                        inspector general is to prepare a report to the agency that

                              •   reviews the agency’s supervision of the institution, including
                                  its implementation of the prompt corrective actions (PCA)
                                  provisions of Section 38; and

                              •   makes recommendations for preventing any such loss in the
                                  future.

                        To accomplish our objectives, we reviewed the supervisory files
                        and interviewed OCC examiners and officials. In some cases, those
                        interviewed were previous OTS employees who were involved with
                        the bank’s supervision prior to July 21, 2011, when OCC assumed
                        regulatory responsibility for federal savings associations pursuant
                        to P.L. 111-203. We also interviewed personnel at Federal Deposit
                        Insurance Corporation’s (FDIC) Division of Depositor and Consumer
                        Protection. Specifically, we performed the following work:

                              •   We determined the period covered by our review to be from
                                  2004 through 2012.

                              •   We reviewed OCC’s and OTS’ supervisory files and records
                                  for Second Federal from the 2004 through 2012
                                  examination cycles. We analyzed examination reports,
                                  supporting work papers, and related supervisory and

15
     12 U.S.C. § 1831o (k).

                        In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 10
                        (OIG-14-002)
Appendix 1
Objectives, Scope, and Methodology




        enforcement correspondence. We did not conduct an
        independent or detailed review of the external auditor’s work
        or associated work papers.

    •   We reviewed the Comptroller’s Handbook and various
        interagency guidance on high-risk lending areas.

    •   We interviewed and discussed various aspects of the
        supervision of the institution and regulatory guidance with
        OCC examiners and officials. We also interviewed FDIC
        officials regarding ITIN mortgage lending.

    •   We conducted research on current trends and statistics
        related to ITINs and ITIN lending.

    •   We assessed OCC’s actions based on its internal guidance
        and the requirements of the Federal Deposit Insurance Act,
        as amended by 12 U.S.C. § 1820(d).

We conducted our fieldwork from November 2012 to June 2013.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the review to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 11
(OIG-14-002)
Appendix 2
Second Federal Savings and Loan of Chicago History and CAMELS rating




Second Federal Savings and Loan Association of Chicago
History

Second Federal Savings and Loan Association of Chicago (Second
Federal) of Chicago, Illinois, was established in 1923. Second
Federal had its main headquarters in Chicago and additional
branches in Cicero, Aurora, and Fox Lake, Illinois.

Historically, Second Federal was a conservatively managed
institution extending residential mortgage loans within its
surrounding communities funded by a stable core deposit base. In
2004, the bank changed its business plan to service the growing
Hispanic immigrant population, targeting significant growth in
individual taxpayer identification numbers (ITIN) loans. The growth
in the ITIN portfolio outpaced management's aggressive business
plan and by September 30, 2004, ITIN loans totaled $61 million or
over 229 percent of capital and reserves. As a result of the
economic downturn in 2007 and 2008, unemployment within the
bank's customer base grew dramatically and many customers
abandoned their properties and returned to their native countries.
Second Federal also originated stated-income residential and
commercial loans.

Despite examiners' repeated criticisms and enforcement actions,
Second Federal’s board and management failed to correct or
prevent unsafe or unsound practices and conditions. In 2004, an
Office of Thrift Supervision (OTS) matters requiring board attention
(MRBA) directed the board to (1) revise the strategic plan,
(2) establish limits on ITIN loans, (3) ensure that the bank no longer
made ITIN loans with loan-to-value (LTV) ratios of 90 percent or
higher, (4) develop a plan to mitigate the risk of ITIN loans coming
due in 5 years, (5) adjust the allowance for loan and lease losses
(ALLL) balance and methodology, (6) evaluate the management
structure, (7) address the general lack of oversight of operations,
and (8) develop an effective internal audit function. A Supervisory
Directive dated January 4, 2005, and a Supervisory Agreement
dated May 11, 2005 (2005 Agreement), also required the board to
correct all the ITIN lending deficiencies identified during the 2004
examination. While the board improved its oversight and
communications and complied with most of the 2005 Agreement,
the 2006 examination found that the board’s efforts to reduce the

In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 12
(OIG-14-002)
Appendix 2
Second Federal Savings and Loan of Chicago History and CAMELS rating




ITIN loan concentration and bring the high-LTV loans into
compliance had not been successful. By the 2007 examination, the
bank was in compliance with the 2005 Agreement’s provisions
regarding limits on ITIN loans and loans with high LTV ratios, but
not the provisions regarding senior management structure and
oversight, and internal audit. In 2009, OTS formal enforcement
actions required Second Federal to develop appropriate business
and capital plans, immediately maintain capital ratios, and achieve
and maintain higher capital ratios by March 31, 2010. The bank
was unable to meet the required capital ratios after December 31,
2009, and the bank's declining asset quality and net losses caused
capital ratios to continue to decline. A matter requiring attention
from the OCC 2011 on-site review required the board to ensure
compliance with the 2009 enforcement actions.

Although Second Federal had a CAMELS composite rating of 3
from 2004 through 2007, and a rating of 4 from 2008 through
2010, the bank was still well capitalized for PCA purposes as of
December 2009, and adequately capitalized as of December 2010.
Second Federal’s PCA capital levels and efforts to obtain additional
capital allowed the bank to remain open beyond 2010. On May 24,
2011, OTS notified the board that Second Federal’s total risk-
based capital ratio of 7.79 was within the thresholds for the
undercapitalized category for PCA purposes and required the board
to submit a capital restoration plan (CRP) by June 15, 2011.

On July 21, 2011, the supervision of Second Federal was
transferred to OCC. The OCC’s Special Supervision Division
notified the board on July 26, 2011, that the bank was designated
as significantly undercapitalized for PCA purposes due to its failure
to submit an acceptable CRP within the allowed time and notified
the board that the bank became critically undercapitalized on April
30, 2012. On July 20, 2012, OCC closed Second Federal and
appointed the FDIC as receiver. As PCA requires federal banking
agencies to take certain actions when an institution’s capital drops
below certain levels, we concluded that OCC’s supervisory actions
under PCA were appropriate.




In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 13
(OIG-14-002)
         Appendix 2
         Second Federal Savings and Loan of Chicago History and CAMELS rating




Summary of OTS’s Second Federal Examinations and Enforcement Actions
                                               Examination Results
                                            Number
Date started/          Assets CAMELS        of
Type of exam           (millions) rating    MRBAs Enforcement actions
                                                     Supervisory Directive issued
11/29/2004                                           1/4/2005
                       $265.0 3/233221      12
Full-scope examination                               Supervisory Agreement issued
                                                     5/11/2005
02/13/2006 a                                         Formal Enforcement Action
                       $269.0 3/233221      2
Full-scope examination                               Waiver issued 6/6/2006
             a
05/07/2007
                       $258.8 3/223321      20       None
Full-scope examination
                                                     Troubled Condition Letter
                                                     issued 9/9/2008
08/11/2008 a                                         Cease & Desist Order effective
                       $252.1 4/344442      19
Full-scope examination                               3/23/2009
                                                     Supervisory Directive issued
                                                     4/22/2009
10/13/2009 b                                         Amended Cease and Desist
                       $248.0 4/454544      11
Full-scope examination                               Order effective 10/13/2009
02/28/2011b, c
                       $210.1 5/555544      14       None
Full-scope examination
a
  Second Federal remained under the May 11, 2005, Supervisory Agreement.
b
  Second Federal remained under the March 23, 2009, Cease and Desist Order.
c
  Examinations conducted by OTS. OCC did not conduct a full-scope examination of Second Federal; however,
OCC notified the bank’s board of directors in writing of the findings of its on-site review that began on
November 21, 2011.

Source: OTS ROEs and enforcement actions; Second Federal’s thrift financial reports.




         In-Depth Review of Second Federal Savings and Loan Association of Chicago               Page 14
         (OIG-14-002)
Appendix 3
Management Response




In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 15
(OIG-14-002)
Appendix 3
Management Response




In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 16
(OIG-14-002)
Appendix 4
Major Contributors to This Report




Theresa Cameron, Audit Manager
Dana Duvall, Audit Manager
Maria McLean, Auditor
Cecilia Howland, Referencer




In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 17
(OIG-14-002)
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

U.S. Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services




In-Depth Review of Second Federal Savings and Loan Association of Chicago   Page 18
(OIG-14-002)
